September 29, 2000

KENNETH C. WEAVER
CHIEF POSTAL INSPECTOR

SUBJECT: Audit Report – Inspection Service Awards Program for Law Enforcement
         Employees (Report Number OV-AR-00-003)

This report presents the results of our audit of the Inspection Service awards program
(Project Number 00CA003OV000). Our overall objective was to evaluate the
management and operation of the Inspection Service awards program. Specifically, we
determined whether the awards program was appropriately utilized and implemented in
a consistent, effective, and efficient manner for law enforcement employees.

The audit revealed the Inspection Service awards program for law enforcement
employees was fairly administered. However, several improvements could be made to
the program. Management provided comments to the report and agreed with our
recommendations. Management’s comments and our evaluation of their comments are
included in the report.

We appreciate the cooperation and courtesies provided by your staff during the review.
If you have any questions or need additional information, please contact Cathleen
Berrick, director, Oversight, or me at (703) 248-2300.



Debra D. Pettitt
Acting Assistant Inspector General
 for Oversight and Business Evaluations

cc: 	James K. Belz
     John R. Gunnels
Audit of the Inspection Service Awards                                     OV-AR-00-003
 Program for Law Enforcement Employees


                                TABLE OF CONTENTS
Executive Summary
                                                             i

Part I

Introduction 
                                                                1

   Background                                                                 1
   Objectives, Scope, and Methodology                                         2


Part II

Audit Results 	                                                               4


   Law Enforcement Employee Awards                                            4

   Recommendations                                                            8
   Management’s Comments                                                      8

   Evaluation of Management’s Comments                                        8


Appendix A.	 Administration of Awards Program                                10 


Appendix B. Statistical Sampling and Projections for Analysis of             11 

            Inspection Service Cash Awards 


Appendix C.	 Comparison of Cash Award Approval Levels Between the            13 

             Inspection Service, Federal Bureau of Investigation, Secret
             Service, and Bureau of Alcohol, Tobacco, and Firearms

Appendix D.	 Comparison of Inspection Service Law Enforcement                14 

             Employee Population to Cash Award Recipients by Date of
             Birth (DOB)

Appendix E. Comparison of Inspection Service Law Enforcement                 15 

            Employee Population to Cash Award Recipients by Minority

            Classification 


Appendix F. 	Comparison of Inspection Service Law Enforcement                17 

             Employee Population to Cash Award Recipients by Gender


Appendix G.	 Management’s Comments                                           18 

Audit of the Inspection Service Awards                                            OV-AR-00-003
 Program for Law Enforcement Employees


                                EXECUTIVE SUMMARY

Introduction                This report presents the results of our audit of the Inspection
                            Service awards program. Our overall objective was to
                            evaluate the management and operation of the Inspection
                            Service awards program. Specifically, we determined
                            whether the awards program was appropriately utilized and
                            implemented in a consistent, effective, and efficient manner
                            for law enforcement employees.

Results in Brief            The audit revealed the Inspection Service awards program
                            for law enforcement employees was fairly administered.
                            However, several improvements could be made to the
                            Inspection Service awards program. Specifically, the types
                            of actions used to justify cash awards were not consistent
                            throughout Inspection Service divisions, and some cash
                            award justifications did not explicitly identify the purpose for
                            the award. Further, inconsistencies existed in the approval
                            levels for cash awards when compared to awards programs
                            at the federal law enforcement agencies surveyed. In
                            addition, we could not determine whether cash equivalent
                            and noncash tangible awards valued over $50 were
                            reported to the Internal Revenue Service as required.
                            Finally, while reviewing cash equivalent and noncash
                            tangible award documentation, we identified that purchases
                            for personal items were made through the Postal Service
                            procurement system. As a result, there is an increased risk
                            that the Inspection Service awards program may be
                            perceived as unfair or not appropriately utilized and
                            implemented.

Summary of                  We recommend the chief postal inspector modify existing
Recommendations             awards policy to identify actions that may warrant awards
                            and require that awards justifications identify the specific
                            reasons for the award. We further recommend the chief
                            postal inspector evaluate approval levels for inspector cash
                            awards to determine if they are appropriate and support the
                            objectives of the awards program; establish management
                            controls to ensure that informal awards are reported to the
                            Internal Revenue Service as required; and establish or
                            modify existing management controls to ensure that only
                            official purchases are made through the Postal Service
                            procurement system.




                                               i
Audit of the Inspection Service Awards                                          OV-AR-00-003
 Program for Law Enforcement Employees




Summary of                  The deputy chief inspector, Professional Standards and
Management’s                Resource Development, provided comments to the report.
Comments                    The deputy chief inspector agreed with the
                            recommendations and identified the following corrective
                            actions.

                                •	 The office of Professional Standards and Resource
                                   Development will draft, and offer for policy
                                   augmentation consideration, general language
                                   identifying the type of actions that may warrant
                                   awards and requiring that justifications identify the
                                   specific reasons for the award.

                                •	 The Inspection Service will evaluate the approval
                                   levels for inspector cash awards to determine if they
                                   are appropriate and support the awards program.

                                •	 The Inspection Service will establish management
                                   instructions/controls to ensure that all cash and
                                   noncash tangible awards are reported as income to
                                   the Internal Revenue Service as required.

                                •	 The Inspection Service will modify or issue new
                                   instructions to ensure that only official purchases are
                                   made through the Postal Service procurement
                                   process.

                            Management’s comments, in their entirety, are included in
                            Appendix G of this report.

Overall Evaluation of       Management’s comments are responsive to the
Management’s                recommendations and the actions, taken or planned,
Comments                    address the issues discussed in the report.




                                              ii
Audit of the Inspection Service Awards                                                             OV-AR-00-003
 Program for Law Enforcement Employees


                                           INTRODUCTION

Background 	                      The Inspection Service awards program for law enforcement
                                  employees is designed to recognize various levels of
                                  noteworthy and individual performance. The program
                                  consists of cash and informal awards.

                                  Cash awards are payments of up to $10,000 designed to
                                  acknowledge and reward superior individual or group
                                  achievement. Inspectors in charge can approve cash awards
                                  of $5,000 or less. The deputy chief inspector for
                                  administration can approve cash awards between $5,001 and
                                  $10,000.1

                                  Informal awards consist of cash equivalent awards, noncash
                                  tangible awards, and letters/certificates of appreciation that
                                  are valued at less than $100. Cash equivalent awards
                                  include dinner certificates, coupons, tickets to shows or
                                  events, and other similar items. Noncash tangible awards
                                  include coffee mugs, shirts, pens, and other items that cannot
                                  be converted to cash. Letters/Certificates of appreciation
                                  include plaques and badge encasement for retiring
                                  inspectors. Immediate supervisors can approve informal
                                  awards.

                                  The Inspection Service Memorandum, “Inspector Pay and
                                  Compensation,” dated July 1, 1998, and updated on
                                  February 2, 1999, and December 15, 1999, governs the
                                  Inspection Service awards program for law enforcement
                                  employees. Specifically, the memorandums identify program
                                  guidelines, types of awards, approval levels for awards, and
                                  award budgets by division and operating unit.

Awards Budget	                    The Inspection Service fiscal year (FY) awards budget for law
                                  enforcement personnel is calculated as 1 percent of the base
                                  salaries, plus locality pay, of all eligible law enforcement
                                  employees. Inspection Service FY 1999 awards funding,



1
 The Inspection Service awards program for law enforcement employees, approved by the Board of Governors in
June 1998, required that the chief postal inspector approve awards between $5,001 and $10,000. Inspection
Service management modified the awards policy on February 2, 1999, to authorize the deputy chief inspector for
administration to approve awards between $5,001 and $10,000. Inspection Service management further modified the
awards policy on December 15, 1999, to require, once again, that the chief postal inspector approve awards between
$5,001 and $10,000.




                                                        1
Audit of the Inspection Service Awards                                         OV-AR-00-003
 Program for Law Enforcement Employees


                            broken out by law enforcement employees, executive and
                            administrative schedule employees, and postal police
                            officers, is identified below:

                                           Employee                           Percent of
                                          Designation            Budget         Total

                                     Law Enforcement            $1,509,000           76%
                                     Executive and
                                     Administrative Schedule     $420,881            21%
                                     Postal Police Officers       $54,460             3%

Objective, Scope and        Our overall objective was to evaluate the management and
Methodology                 operation of the Inspection Service awards program.
                            Specifically, we determined if the awards program was
                            appropriately utilized and implemented in a consistent,
                            effective, and efficient manner. In evaluating the program, we
                            focused on law enforcement employees who were allocated
                            76 percent of the Inspection Service awards budget.

                            To accomplish our objectives, we selected a statistical sample
                            of law enforcement employees who received cash awards
                            during FY 1999 for review. We reviewed cash award
                            justifications to determine if proper approvals were obtained
                            and if justifications provided adequate support for the award.
                            We also reviewed demographic profiles of cash award
                            recipients to determine if award recipients reflected the
                            general division population. We randomly selected and
                            reviewed 1,469 (46 percent) of 3,159 inspector personnel files
                            to determine if inspectors undergoing disciplinary reviews also
                            received awards. We also reviewed cash equivalent and
                            noncash tangible award documentation to determine if
                            awards were purchased with awards funds and were reported
                            as income to the Internal Revenue Service as required.

                            We compared the Inspection Service awards program for law
                            enforcement employees with awards programs at the Federal
                            Bureau of Investigation; Secret Service; and the Bureau of
                            Alcohol, Tobacco, and Firearms to determine if cash award
                            approval levels were consistent among the programs. We
                            also interviewed numerous Inspection Service and Postal
                            Service officials concerning Inspection Service awards policy
                            and practices.




                                             2
Audit of the Inspection Service Awards                                       OV-AR-00-003
 Program for Law Enforcement Employees


                            We reviewed records and documents covering the period
                            September 1998 through September 1999. We tested and
                            validated computer-generated data obtained from the Postal
                            Service payroll system by confirming it with source
                            documentation and through discussions with Postal
                            Service officials. Our tests disclosed that the data was
                            sufficiently reliable to support the audit conclusions.

                            We conducted the audit from February 2000 through
                            September 2000 in accordance with generally accepted
                            government auditing standards, and included such tests of
                            internal controls as were considered necessary under the
                            circumstances. We discussed our conclusions and
                            observations with management officials and included their
                            comments where appropriate.




                                            3
Audit of the Inspection Service Awards                                         OV-AR-00-003
 Program for Law Enforcement Employees


                                    AUDIT RESULTS

Law Enforcement             The Inspection Service awards program for law
Employee Awards             enforcement employees was fairly administered.
                            Specifically, cash award recipients reflected the division
                            population, and cash awards were generally approved by
                            the appropriate management level. Further, cash awards
                            given to individuals undergoing disciplinary actions were
                            adequately justified, and cash equivalent and noncash
                            tangible awards were generally purchased with awards
                            funds. See Appendix A for details.

                            However, several improvements could be made to the
                            Inspection Service awards program. Specifically, the types
                            of actions used to justify cash awards varied throughout
                            Inspection Service divisions; some cash award justifications
                            did not explicitly identify the purpose for the award; and
                            some inconsistencies existed in the approval levels for cash
                            awards when compared to awards programs at the federal
                            law enforcement agencies surveyed. In addition, we could
                            not determine whether cash equivalent and noncash
                            tangible awards valued over $50 were reported to the
                            Internal Revenue Service as required. Finally, while
                            reviewing cash equivalent and noncash tangible award
                            documentation, we identified that purchases for personal
                            items were made through the Postal Service Procurement
                            System.

                            Inspection Service management did not establish agency-
                            wide policy identifying the types of acts that may warrant
                            awards and requiring that award justifications identify the
                            specific actions supporting the award. Inspection Service
                            management, in conjunction with Postal Service Human
                            Resources management, also developed a recognition and
                            awards program for inspectors that was not fully
                            comparable with the programs of other federal law
                            enforcement agencies. In addition, division management
                            did not maintain complete records of cash equivalent and
                            noncash tangible awards given. Finally, management
                            controls were not sufficient to ensure that only official
                            purchases were made through the Postal Service
                            Procurement System. As a result, there is an increased risk
                            that the Inspection Service awards program may be
                            perceived as not being fair or appropriately utilized and
                            implemented.



                                             4
Audit of the Inspection Service Awards                                                      OV-AR-00-003
 Program for Law Enforcement Employees


Division Award                      The types of actions used to justify awards varied
Practices                           throughout Inspection Service divisions. Specifically,
                                    division officials provided awards for acts that were not
                                    awarded at other divisions. For example, officials from one
                                    division awarded an inspector $500 for obtaining a law
                                    degree and passing the bar exam. In addition, division
                                    officials had previously funded a bar review course and
                                    study materials for the same inspector at a cost of $1,470.
                                    Officials from the other ten sampled divisions did not
                                    provide awards for obtaining a law degree or passing the
                                    bar exam.

                                    In another example, officials from one division provided a
                                    $250 cash award to five inspectors2 for obtaining perfect
                                    scores on the shooting range. Officials from the other ten
                                    divisions sampled did not provide awards for obtaining
                                    perfect scores on the shooting range. Further, we
                                    determined that the federal law enforcement agencies
                                    surveyed did not provide awards to law enforcement officers
                                    for obtaining perfect scores on the shooting range. Officials
                                    at these agencies stated that they considered proficiency on
                                    the range to be a requirement of the position.

                                    Practices for giving awards varied throughout Inspection
                                    Service divisions because Inspection Service management
                                    did not establish agency-wide policy governing the types of
                                    acts, in general, that may warrant awards. Officials from
                                    some divisions established internal policies governing their
                                    awards programs. However, these policies varied among
                                    divisions and many were not documented. A lack of
                                    agency-wide policy governing the types of acts that warrant
                                    awards may result in the perception that the awards
                                    program is not implemented in a consistent and fair manner.

Cash Award                          Although most award justifications reviewed provided
Justifications                      specific reasons for the awards being given, we identified
                                    some cash award justifications that did not explicitly identify
                                    the purpose for the award. Specifically, 180 of the 184 cash
                                    award justifications reviewed for 166 individuals provided
                                    specific reasons why the award was given. However, the
                                    remaining four awards included vague justifications such as
                                    “successfully solved robberies, burglaries, and numerous
                                    volume attack thefts,” and “consistently performed above

2
    One inspector received two awards for obtaining perfect scores on the shooting range.




                                                           5
Audit of the Inspection Service Awards                                          OV-AR-00-003
 Program for Law Enforcement Employees



                            and beyond the average level of expected performance.”
                            Based upon our statistical sample, we can project with
                            95 percent confidence that no more than 7.5 percent of the
                            individuals received cash awards that were not specific.
                            See Appendix B for a detailed explanation of the sample
                            plan and results.

                            Award justifications were not always specific because
                            Inspection Service management did not establish agency-
                            wide policy requiring that award justifications identify the
                            specific actions supporting the award. We projected that
                            most cash awards given to law enforcement employees
                            during FY 1999 provided specific justifications. However,
                            those justifications that were not specific could raise
                            questions regarding the appropriateness of the award and
                            the fairness of the awards process.

Cash Award Approval         Some inconsistencies existed in the approval levels for cash
Levels                      when compared to awards programs at the federal law
                            enforcement agencies surveyed. We compared the
                            Inspection Service awards program for law enforcement
                            employees with awards programs at the Federal Bureau of
                            Investigation; Secret Service; and Bureau of Alcohol,
                            Tobacco, and Firearms. Although we found the purposes
                            for providing cash awards to be consistent throughout all
                            awards programs, there were some differences in the level
                            of officials required to approve employee awards.

                            For example, the Inspection Service awards program
                            allowed inspectors-in-charge to approve awards up to
                            $5,000, while the Federal Bureau of Investigation; Secret
                            Service; and the Bureau of Alcohol, Tobacco, and Firearms
                            awards programs allowed equivalent personnel to only
                            approve awards up to $100, $1,000, and $2,000
                            respectively. In addition, the Inspection Service awards
                            programs allowed the chief postal inspector to approve
                            awards up to $10,000, while the Federal Bureau of
                            Investigation awards program allowed the director to only
                            approve awards up to $5,000. See Appendix C for a
                            comparison of award approval levels at the Inspection
                            Service; Federal Bureau of Investigation; Secret Service;
                            and Bureau of Alcohol, Tobacco, and Firearms.




                                              6
Audit of the Inspection Service Awards                                           OV-AR-00-003
 Program for Law Enforcement Employees



Tax Reporting for Cash      We could not determine whether cash equivalent and
Equivalent and              noncash tangible awards valued over $50 were reported to
Noncash Tangible            the Internal Revenue Service as required. Division officials
Awards                      are required to report cash equivalent and noncash tangible
                            awards valued over $50 as recipient income to the Internal
                            Revenue Service for taxation purposes. However, we could
                            not determine if cash equivalent and noncash tangible
                            awards were reported to the Internal Revenue Service
                            because division management did not maintain complete
                            records of the cash equivalent and noncash tangible awards
                            given. Specifically, we identified that 13 of the 18 divisions
                            did not maintain records of cash equivalent and noncash
                            tangible awards. Without documentation identifying the
                            cash equivalent and noncash tangible awards given,
                            Inspection Service management may not be assured that all
                            recipient income is reported to the Internal Revenue Service
                            as required.

Personal Purchases          While reviewing cash equivalent and noncash tangible
                            award documentation, we identified that purchases for
                            personal items were made through the Postal Service
                            procurement system. Specifically, we found an invoice
                            identifying that an Inspection Service employee purchased
                            personal items through the Postal Service procurement
                            system. Notations on the invoice indicated that the Postal
                            Service was reimbursed for the purchases. However,
                            Inspection Service management approved the purchases
                            through processing the voucher. Management controls
                            were not sufficient to ensure that only official purchases
                            were made through the Postal Service Procurement
                            System. Allowing personal purchases to be made through
                            the procurement system could result in the Postal Service
                            being held financially responsible for items not needed.

Summary                     Confidence in the fairness, administration, and
                            implementation of any awards program is paramount to the
                            success of the program. Although the Inspection Service
                            awards program for law enforcement employees was fairly
                            administered, the issues identified in this report could result
                            in the perception that the awards program was not fair or
                            was inappropriately utilized and implemented. This
                            perception could adversely affect employee morale and
                            impact the Inspection Service’s ability to perform its mission.
                            For example, variations in the types of actions used to




                                              7
Audit of the Inspection Service Awards                                            OV-AR-00-003
 Program for Law Enforcement Employees


                            justify awards could result in the appearance of a lack of
                            fairness in the awards process and inconsistency in the
                            application of awards policy among Inspection Service
                            divisions. As a result, Inspection Service management
                            should ensure that the issues identified in this report are
                            addressed to help prevent the risk of negative perceptions
                            and support the success of the awards program.

Recommendation              We recommend the chief postal inspector:

                            1. Modify existing awards policy for law enforcement
                               employees to:

                               •	 Identify the types of acts, in general, that may warrant
                                  awards.

                               •	 Require that award justifications identify the specific
                                  actions supporting the award.

Management’s                The deputy chief inspector, Professional Standards and
Comments                    Resource Development, provided comments to the report.
                            The deputy chief inspector stated that his office will draft,
                            and offer for policy augmentation consideration, general
                            language identifying the type of actions that may warrant
                            awards and requiring that justifications identify the specific
                            reasons for the award.

Evaluation of               Management’s comments are responsive to the 

Management’s                recommendation. 

Comments 


Recommendation              2. Evaluate the approval levels for inspector cash awards to
                               determine if they are appropriate and support the
                               objectives of the awards program. Consider the
                               approval levels of awards programs at other federal law
                               enforcement agencies during the evaluation.

Management’s 	              The deputy chief inspector stated that the Inspection
Comments 	                  Service would evaluate approval levels for inspector cash
                            awards to determine if they are appropriate and support the
                            objectives of the awards program.




                                              8
Audit of the Inspection Service Awards                                         OV-AR-00-003
 Program for Law Enforcement Employees




Evaluation of               Management’s comments are responsive to the 

Management’s                recommendation. 

Comments 


Recommendation              3. Establish management controls to ensure that all cash
                               equivalent and noncash tangible awards are reported, as
                               required, to the Internal Revenue Service as income to
                               the recipient.
Management’s 	              The deputy chief inspector stated that the Inspection
Comments 	                  Service would establish management instructions/controls
                            to ensure that all cash and noncash tangible awards are
                            reported as income to the Internal Revenue Service as
                            required.

Evaluation of               Management’s comments are responsive to the 

Management’s                recommendation. 

Comments 


Recommendation              4. Modify existing controls, or establish new management
                               controls, to ensure that only official purchases are made
                               through the Postal Service Procurement System.

Management’s 	              The deputy chief inspector stated that the Inspection
Comments 	                  Service would modify or issue new instructions to ensure
                            that only official purchases are made through the Postal
                            Service procurement process.

Evaluation of               Management’s comments are responsive to the 

Management’s                recommendation. 

Comments 





                                             9
Audit of the Inspection Service Awards                                        OV-AR-00-003
 Program for Law Enforcement Employees


        APPENDIX A. ADMINISTRATION OF AWARDS PROGRAM
Demographic Profile. Cash award recipients reflected the division population. We
prepared a demographic profile of cash award recipients by age, gender, and race to
determine if award recipients reflected the division population. To develop this profile,
we compared the active division population with the population of division award
recipients for FY 1999. Based on an analysis of this profile, we determined that cash
award recipients generally reflected the division population. See Appendices D, E, and
F for a comparison of employee award recipients by date of birth, minority classification,
and gender.

Approval Levels. Cash awards were generally approved by the appropriate
management level. Specifically, based on our sample results, we project that no more
than 2.5 percent of cash awards under $5,000 in value were not approved by the
appropriate management level. In addition, we reviewed all nine cash awards given in
excess of $5,000 and determined that nine awards were approved by the chief postal
inspector or designee. The remaining award was approved by an inspector in charge
and only exceeded the $5,000 limit by approximately $500.

Disciplinary Actions. Cash awards given to individuals undergoing disciplinary actions
were adequately justified. Specifically, we reviewed 1,469 (46 percent) of
3,159 inspector personnel files to determine if an individual received a cash award
during the same time period they were under investigation. We determined that 7 of the
1,469 individuals reviewed were investigated during the approximate same time period
that the actions occurred that were used to justify the award. However, we concluded
that the award justifications supported the awards and that the disciplinary actions were
not directly related to the actions awarded.

Awards Funds. Cash equivalent and noncash tangible awards were generally
purchased with awards funds as required. Specifically, we determined that 17 of the
18 divisions either purchased cash equivalent and noncash tangible awards with
awards funds, or purchased the items with operating funds and later transferred the
funds to the awards fund. We could not determine whether the remaining division
properly transferred all operating funds to the awards fund because division officials
conducted the transfers themselves and did not maintain all associated documentation.
Inspection Service awards policy requires that the Office of Finance and Administrative
Services conduct all transfers of operating funds to the awards fund. Officials from the
office of Finance and Administrative Services maintain documentation of all awards fund
transfers.




                                            10
Audit of the Inspection Service Awards                                          OV-AR-00-003
 Program for Law Enforcement Employees


                                         APPENDIX B
   STATISTICAL SAMPLING AND PROJECTIONS FOR ANALYSIS OF
              INSPECTION SERVICE CASH AWARDS
Purpose of the Sampling

One of the objectives of this audit was to assess the implementation of Postal Service
policy regarding cash awards within the Inspection Service. In support of this objective,
the audit team employed a two-stage attribute sample design that allows statistical
projection of responses from individual Inspection Service division offices.

Definition of the Audit Universe

The audit universe consisted of 18 field division offices, with a total of 740 employees.
Headquarters, the Forensic and Technical Services division, the Career Development
division, and the three Inspection Service Operations Support Groups were not included
in this universe. The management of the Inspection Service Operations Support
Groups was the source of the universe data.

Sample Design

The audit used a two-stage sample design. At the first stage, eleven divisions were
randomly selected for review. At the second stage, 15 individuals were selected from
each first-stage division to provide a level of precision of approximately 4 percent for the
projection, assuming a 10 percent error rate. The attribute analyzed was whether
individuals received awards for which justifications were inadequately documented.

Statistical Projections of the Sample Data

For the attribute analyzed, the sample results indicated a very low number of errors.
Therefore, the precision of the sample was analyzed using the hypergeometric
adaptation of the binomial attribute table for controls testing, found in the General
Accounting Office’s Financial Audit Manual. Because the population size is considered
small, the tabulated values for the upper precision interval (for 95 percent reliability)
were adjusted by the square root of the corresponding hypergeometric finite population
correction, ((N-n)/(N-1)).

Attribute 1: Individuals for Whom Award Approval Was Not Appropriately
Documented.

The universe for this attribute is 740 individuals. Based on projection of the sample
results, we are 95 percent confident that no more than 19 individuals, or 2.5 percent,
received awards that lacked the proper approval documentation. The unbiased point
estimate is zero individuals.




                                             11
Audit of the Inspection Service Awards                                        OV-AR-00-003
 Program for Law Enforcement Employees



Attribute 2: Individuals for Whom Award Justification Were Inadequately
Documented

The universe for this attribute is 740 individuals. Based on projection of the sample
results, we are 95 percent confident that no more than 55 individuals, or 7.5 percent,
received awards for which the justifications was inadequately documented. The
unbiased point estimate is 28 individuals, or 3.8 percent of the universe.




                                           12
Audit of the Inspection Service Awards                                                                  OV-AR-00-003
 Program for Law Enforcement Employees


                                                 APPENDIX C
             COMPARISON OF CASH AWARD APPROVAL LEVELS
               BETWEEN THE INSPECTION SERVICE; FEDERAL
             BUREAU OF INVESTIGATION; SECRET SERVICE; AND
              BUREAU OF ALCOHOL, TOBACCO, AND FIREARMS
    Organization          Amount of Award                                Approving Authority

Inspection               Items other than              Immediate Supervisor
Service (Law             cash with value
Enforcement              less than $100
Employees)               Up to $5,000                  Immediate Executive
                         $5,001-$10,000                FY98-Chief Postal Inspector
                                                       FY99-Deputy Chief Inspector for Administration
                                                       FY00-Chief Postal Inspector
Federal Bureau           $50-$100                      Division Head
of Investigation         4 hours to 40 hours           Division Head
                         (maximum 80 hours
                         per calendar year)
                         $5,000                        Director, Federal Bureau of Investigation
                         Above $5,000                  Referred to the Department of Justice
Secret Service           $25 - $500                    Award Subpool Manager3
                         $500-$1,000                   Chief Counsel, Special Agent In Charge,
                                                       Division Chief4
                         $1,000-$2,500                 Pool Manager5
                         $2,500-$10,000                Pool Manager and Deputy Director
                         Over $10,000                  Office of Personnel Management
Bureau of                Up to $2,000                  One Supervisory Level Above the
Alcohol,                                               Recommending Official6
Tobacco and
Firearms                 $2,000 to $5,000              Deputy Director (to Director, Bureau of Alcohol,
                                                       Tobacco, and Firearms)
                         $5,000 to $10,000             Director, Bureau of Alcohol, Tobacco, and
                                                       Firearms

3
  Each pool is divided into subpools. Subpools include each assistant director’s office, chief counsel, division, and 

field office. Approval levels for subpool managers are equivalent to the General Schedule 14/15 level. 

4
  These positions are equivalent to inspectors in charge, Inspection Service.
5
  The superior accomplishment award budget is allocated among five pools: (1) Office of the D
irector and Deputy
Director, Chief Counsel, Office of Government Liaison and Public Affairs, Office of Inspection, and Office of Training
(2) Office of Administration, (3) Office of Protective Operations, (4) Office of Protective Research, and (5) Office of
Investigations. Pool managers are equivalent to the senior executive service level.
6
  Associate directors, deputy directors, division chiefs, and staff chiefs, Office of Law Enforcement and Compliance
Operations; comptroller, deputy comptroller, director, laboratory services, and division chiefs, Office of the
Comptroller; assistant director and division chiefs, Office of Internal Affairs; assistant director, Congressional and
Media Affairs; and the Chief Counsel are authorized to recommend and approve cash awards for headquarters
employees in their directorates and for field personnel under their direct supervision.




                                                          13
Audit of the Inspection Service Awards                               OV-AR-00-003
 Program for Law Enforcement Employees


                                         APPENDIX D
              COMPARISON OF INSPECTION SERVICE LAW
           ENFORCEMENT EMPLOYEE POPULATION TO CASH
             AWARD RECIPIENTS BY DATE OF BIRTH (DOB)

    Division                     Population            DOB    DOB    DOB   DOB
                                                      1940s  1950s  1960s 1970s
  S. California  Employees                               18%    48%    32%   2%
                 Award Recipients                        19%    56%    23%   2%
  N. California  Employees                               33%    48%    18%   1%
                 Award Recipients                        37%    41%    22%
Rocky Mountain Employees                                 19%    58%    23%
                 Award Recipients                        10%    84%     6%
Washington Metro Employees                               16%    54%    29%   1%
                 Award Recipients                        19%    60%    19%   2%
     Florida     Employees                               35%    44%    20%   1%
                 Award Recipients                        51%    33%    16%
   Southeast     Employees                               39%    40%    21%
                 Award Recipients                        39%    43%    18%
   N. Illinois   Employees                               19%    48%    30%   3%
                 Award Recipients                        17%    51%    27%   5%
   Northeast     Employees                               33%    51%    15%   1%
                 Award Recipients                        37%    52%    11%
    Michiana     Employees                               22%    44%    33%   1%
                 Award Recipients                        24%    41%    35%
    Midwest      Employees                               19%    56%    23%   2%
                 Award Recipients                        16%    60%    23%   1%
   N. Jersey/    Employees                               20%    63%    17%
   Caribbean     Award Recipients                        18%    73%     9%
   New York      Employees                               19%    52%    28%   1%
                 Award Recipients                        21%    60%    19%
  Mid-Atlantic   Employees                               26%    56%    17%   1%
                 Award Recipients                        37%    48%    15%
    Western      Employees                               19%    59%    21%   1%
   Allegheny     Award Recipients                        23%    65%     8%   4%
  Philadelphia   Employees                               27%    58%    15%
                 Award Recipients                        27%    63%    10%
   Gulf Coast    Employees                               26%    46%    27%   1%
                 Award Recipients                        25%    44%    31%
   Southwest     Employees                               22%    55%    19%   4%
                 Award Recipients                        21%    55%    19%   5%
   Northwest     Employees                               24%    58%    18%
                 Award Recipients                        19%    67%    14%




                                              14
Audit of the Inspection Service Awards                                                             OV-AR-00-003
 Program for Law Enforcement Employees


                                                APPENDIX E
             COMPARISON OF INSPECTION SERVICE LAW
        ENFORCEMENT EMPLOYEE POPULATION TO CASH AWARD
              RECIPIENTS BY MINORITY CLASSIFICATION
                                     American
                                      Indian,        Asian or Black,             White,    Non-
     Division        Population       Alaskan         Pacific   Non-   Hispanic   Non-   Hispanic
                                       Native        Islander Hispanic          Hispanic in Puerto
                                     American                                               Rico

    S. California Employees                    1%            8%         13%            7%         71%
                  Award                                      9%          3%            7%         81%
                  Recipients
    N. California Employees                                  19%         8%            6%         67%
                  Award                                       9%        13%            3%         75%
                  Recipients
       Rocky      Employees                                  4%          5%          16%          75%
     Mountain Award                                                                  26%          74%
                  Recipients
    Washington Employees                                                21%            4%         75%
       Metro      Award                                                 15%            4%         81%
                  Recipients
       Florida    Employees                                             12%          17%          71%
                  Award                                                  6%          12%          82%
                  Recipients
     Southeast Employees                                                21%            2%         77%
                  Award                                                 23%                       77%
                  Recipients
     N. Illinois Employees                                   4%         15%            4%         77%
                  Award                                      2%         18%            2%         78%
                  Recipients
     Northeast Employees                                                 4%            1%         95%
                  Award                                                                          100%
                  Recipients
     Michiana Employees                                      1%         14%            2%         83%
                  Award                                      3%         16%            3%         78%
                  Recipients
      Midwest     Employees                    1%            1%         10%                       88%
                  Award                                                 10%                       90%
                  Recipients
    New Jersey/ Employees7                                   1%         10%          21%          66%         1%
     Caribbean Award                                         3%          9%          12%          76%
                  Recipients
7
 We could not identify the minority code for 1 percent of active law enforcement employees at the New
Jersey/Caribbean Division.




                                                        15
Audit of the Inspection Service Awards                                        OV-AR-00-003
 Program for Law Enforcement Employees


                               American
                                Indian,       Asian or Black,             White,    Non-
    Division     Population     Alaskan        Pacific   Non-   Hispanic   Non-   Hispanic
                                 Native       Islander Hispanic          Hispanic in Puerto
                               American                                              Rico
    New York     Employees                          4%     11%       8%      77%

                Award                                4%     4%      11%       81%
                Recipients
   Mid-Atlantic Employees                                  13%       1%       86%
                Award                                      11%       4%       85%
                Recipients
     Western    Employees                                   4%       3%       93%
   (Cincinnati) Award                                       4%       8%       88%
    Allegheny Recipients
   Philadelphia Employees                                   7%       2%       91%
                Award                                       6%       4%       90%
                Recipients
    Gulf Coast Employees                 2%                17%      17%       64%
                Award                    3%                16%       9%       72%
                Recipients
    Southwest Employees                  1%          2%     6%      10%       81%
                Award                    2%          4%    10%      10%       74%
                Recipients
    Northwest Employees                  2%          2%     2%       9%       85%
                 Award                                              14%       86%
                 Recipients




                                                16
Audit of the Inspection Service Awards                                      OV-AR-00-003
 Program for Law Enforcement Employees


                                         APPENDIX F
             COMPARISON OF INSPECTION SERVICE LAW
           ENFORCEMENT EMPLOYEE POPULATION TO CASH
                  AWARD RECIPIENTS BY GENDER

            Division                Gender        Law Enforcement     Award Recipients
                                                     Employees
          S. California           Female                        29%                  35%
                                  Male                          71%                  65%
          N. California           Female                        24%                  38%
                                  Male                          76%                  63%
        Rocky Mountain            Female                        17%                   6%
                                  Male                          83%                  94%
       Washington Metro           Female                       18%                   15%
                                  Male                         82%                   85%
             Florida              Female                       19%                   14%
                                  Male                         81%                   86%
           Southeast              Female                       14%                   13%
                                  Male                         86%                   88%
            N. Illinois           Female                       17%                   10%
                                  Male                         83%                   90%
            Northeast             Female                       12%                    7%
                                  Male                         88%                   93%
            Michiana              Female                       23%                   22%
                                  Male                         77%                   78%
            Midwest               Female                       19%                   18%
                                  Male                         81%                   82%
     New Jersey/ Caribbean        Female                       15%                    6%
                                  Male                         85%                   94%
            New York              Female                       14%                   10%
                                  Male                         86%                   90%
           Mid-Atlantic           Female                       14%                   19%
                                  Male                         86%                   81%
       Western Allegheny          Female                       12%                    8%
                                  Male                         88%                   92%
          Philadelphia            Female                       12%                   14%
                                  Male                         88%                   86%
           Gulf Coast             Female                       24%                   16%
                                  Male                         76%                   84%
           Southwest              Female                       11%                    7%
                                  Male                         89%                   93%
           Northwest              Female                       16%                   14%
                                  Male                         84%                   86%




                                             17
Audit of the Inspection Service Awards               OV-AR-00-003
 Program for Law Enforcement Employees


                 APPENDIX G. MANAGEMENT’S COMMENTS




                                         18
